                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

 Case Number: I06090026                                                               Page 1 of 1



                Our investigation determined that the subject1 impersonated an NSF official. He pled
         guilty of one count of violation of 18 U.S.C. § 912, False Personation of an Officer or
         Employee of the United States, a felony. He was sentenced to: 5 years probation to include
         real-time monitoring of his computer use; 6 months home detention; and payment of fines
         and penalties totaling $80,100. Following his conviction and sentencing, we recommended
         that NSF debar the subject for 5 years, which NSF did effective 2 July 2009.

               Attached are the Judgment In A Criminal Case, our debarment recommendation,
         NSF’s Notice of Proposed Debarment, and NSF’s Debarment notice.

                   This case is closed.




         1
             Michael Winner.



NSF OIG Form 2 (11/02)
AO 245B (Rev. 6/05 - Judgment in a Criminal Case
                      Case 3:08-cr-00209-SI                           Document 30               Filed 12/01/2008                      Page 1 of 5

            Date of Original Judgment:                                                               11/14/08
                                                                      (Or Date of Last Amended Judgment)

                                          Reason for Amendment: Correcting term of supervision
 [ ] Correction of Sentence on Remand (Fed.R.Crim.P.35(a))                              [ ] Modification of Supervision Conditions (18 U.S.C § 3563(c) or 3583(e))
 [ ] Reduction of Sentence for Changed Circumstances                                    [ ] Modification of Imposed Term of Imprisonment for Extraordinary and
     (Fed. R.Crim.P.35(b))                                                                  Compelling Reasons (18 U.S.C. §3582(c)(1))
 [ ] Correction of Sentence by Sentencing Court (Fed.R.Crim.P.35(c)                     [ ] Modification of Imposed Term of Imprisonment for Retroactive
 [ x] Correction of Sentence for Clerical Mistake (Fed.R.Crim.P.36)                         Amendment(s) to the Sentencing Guidelines (18 U.S.C. § 3582(c)(2))
 Imposing 5 years probation.                                                            [ ] Direct Motion to District Court Pursuant to [ ] 28 U.S.C. § 2255,
                                                                                            [ ] 18 U.S.C. § 3559(c)(7), or [ ] Modification of Restitution Order


                                                 United States District Court
                                                      Northern District of California
           UNITED STATES OF AMERICA                                                     JUDGMENT IN A CRIMINAL CASE
                      v.
               MICHAEL K. WINNER                                                        USDC Case Number: CR-08-00209-001
                                                                                                                       SI
                                                                                        BOP Case Number: DCAN308CR000209-001
                                                                                        USM Number:      12031-111
                                                                                        Defendant’s Attorney :Lenard B. Boss


THE DEFENDANT:
[x]        pleaded guilty to count(s): One of the Information .
[]         pleaded nolo contendere to count(s)      which was accepted by the court.
[]         was found guilty on count(s)     after a plea of not guilty.

The defendant is adjudicated guilty of these offense(s):

                                                                                                                                 Offense
 Title & Section                              Nature of Offense                                                                  Ended                           Count

 18:912                                       Impersonation of an Official of the United States                                    7/06                              1

        The defendant is sentenced as provided in pages 2 through 5 of this judgment. The sentence is imposed pursuant to the
Sentencing Reform Act of 1984.

[]         The defendant has been found not guilty on count(s)                      .

[]         Count(s)         (is)(are) dismissed on the motion of the United States.

         IT IS ORDERED that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered
to pay restitution, the defendant must notify the court and United States attorney of any material changes in economic circumstances.

                                                                                                                      November 14, 2008
                                                                                                                Date of Imposition of Judgment


                                                                                                                  Signature of Judicial Officer

                                                                                                       Honorable Susan Illston, U. S. District Judge
                                                                                                            Name & Title of Judicial Officer
                                                                                                                        12/1/08

                                                                                                                                   Date
AO 245B (Rev. 12/03) (CAND Rev. 3/07) Judgment in a Criminal Case - Probation
         Case 3:08-cr-00209-SI Document 30                                      Filed 12/01/2008        Page 2 of 5
DEFENDANT:     MICHAEL K. WINNER                                                                          Judgment - Page 2 of 5
CASE NUMBER:   CR-08-00209-001 SI

                                                                  PROBATION

          The defendant is hereby sentenced to probation for a term of 5 years .

         The defendant shall not commit another federal, state, or local crime. The defendant shall not unlawfully possess a controlled
substance. The defendant shall refrain from any unlawful use of a controlled substance. The defendant shall submit to one drug test
within 15 days of placement on probation and two periodic drug tests thereafter.

[]        The above drug testing condition is suspended based on the court's determination that the defendant poses a low risk of future
          substance abuse. (Check if applicable.)
[x]       The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon. (Check if
          applicable.)
[x]       The defendant shall cooperate in the collection of DNA as direct as directed by the probation officer. (Check if
          applicable.)
[]        The defendant shall register with the state sex offender registration agency in the state where the defendant resides, works, or
          is a student, as direct by the probation officer. (Check if applicable.)
[]        The defendant shall participate in an approved program for domestic violence. (Check if applicable.)

        If this judgment imposes a fine or restitution, it is a condition of probation that the defendant pay in accordance with the
Schedule of Payments sheet of this judgment.

         The defendant must comply with the standard conditions that have been adopted by this court as well with any additional
conditions in this judgment.

          Any appearance bond filed on behalf of the defendant is hereby exonerated.

                                                       STANDARD CONDITIONS

1)    The defendant shall not leave the judicial district without permission of the court or probation officer;
2)    The defendant shall report to the probation officer, and shall submit a truthful and complete written report within the first five
      days of each month;
3)    The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
4)    The defendant shall support his or her dependants and meet other family responsibilities;
5)    The defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or
      other acceptable reasons;
6)    The defendant shall notify the probation officer at least ten days prior to any change in residence or employment;
7)    The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
      controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
8)    The defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
9)    The defendant shall not associate with any persons engaged in criminal activity, and shall not associate with any person
      convicted of a felony, unless granted permission to do so by the probation officer;
10)   The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere, and shall permit confiscation
      of any contraband observed in plain view of the probation officer;
11)   The defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement
      officer;
12)   The defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
      permission of the Court; and
13)   As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant's
      criminal record or personal history or characteristics, and shall permit the probation officer to make such notifications and to
      confirm the defendant’s compliance with such notification requirement.
AO 245B (Rev. 12/03) (CAND Rev. 3/07) Judgment in a Criminal Case - Probation
         Case 3:08-cr-00209-SI Document 30                                      Filed 12/01/2008          Page 3 of 5
DEFENDANT:     MICHAEL K. WINNER                                                                            Judgment - Page 3 of 5
CASE NUMBER:   CR-08-00209-001 SI

                                            SPECIAL CONDITIONS OF PROBATION
1) The defendant shall abstain from the use of all alcoholic beverages.

2)    The defendant shall (1) consent to the probation officer conducting periodic unannounced examinations of his computer equipment,
      which may include retrieval and copying of all data from his computer(s) and any internal or external peripherals to ensure compliance
      with this condition and/or removal of such equipment for the purpose of conducting a more thorough inspection, and (2) consent at
      the direction of the probation officer to having installed on his computer(s), at the defendant's expense, any hardware or software
      systems to monitor his/her computer use.

      The defendant shall refrain from accessing, via a computer, any "material" that relates to the activity in which he was engaged in
      committing the instant offense(s), parole, probation, or supervised release violation behavior, namely the posting if advertisements
      for bogus NSF research projects.

      The defendant shall not possess or use a computer for illegal purposes or to access pornagraphy.

3)    The defendant shall participate in a program of testing and treatment for alcohol abuse, as directed by the probation officer, until
      such time as the defendant is released from treatment by the probation officer. The defendant is to pay part or all of the cost of
      this treatment, at an amount not to exceed the cost of treatment, as deemed appropriate by the probation officer. Payments shall
      never exceed the cost of urinalysis and counseling. The actual co-payment schedule shall be determined by the probation officer.

4)    The defendant shall participate in the Home Confinement with Electronic Monitoring Program and shall abide by all the
      requirements of the program for a period of 6 months. The defendant shall pay the cost of monitoring at the prevailing rate unless
      it is determined by the probation officer that s/he has an inability to pay. A co-payment amount will then be determined by the
      probation officer. The defendant is restricted to his/her residence at all times except for activities which have been pre-approved
      by the probation officer, including employment, education, religious services, medical, substance abuse, or mental health
      treatment, attorney visits, court appearances, or court ordered obligations. During the term of home confinement, the defendant
      shall abstain from the use of alcohol and submit to drug or alcohol testing as directed by the probation officer.

5)    The defendant shall participate in a mental health treatment program, as directed by the probation officer. The defendant is to pay
      part or all costs of this treatment, at an amount not to exceed the cost of treatment, as deemed appropriate by the probation
      officer. Payments shall never exceed the total cost of mental health counseling. The actual co-payment schedule shall be
      determined by the probation officer.

6) The defendant shall not possess any false identification and shall provide his or her true identity at all times.

7)    The defendant shall submit his person, residence, office, vehicle, or any property under his control to a search. Such a search
      shall be conducted by a United States Probation Officer at a reasonable time and in a reasonable manner, based upon reasonable
      suspicion of contraband or evidence of a violation of a condition of release. Failure to submit to such a search may be grounds for
      revocation; the defendant shall warn any residents that the premises may be subject to searches.

8)   The defendant shall have no contact with the victim(s), unless otherwise directed by the probation officer.

9)    The defendant shall provide the probation officer with access to any financial information, including tax returns, and shall
      authorize the probation officer to conduct credit checks and obtain copies of tax returns.

10) The defendant international travel is restricted for 60 days upon entry of this judgment. The defendant may petition the U.S.
    Probation Officer for leave to travel after the restricted period has expired.
AO 245B (Rev. 12/03) - Judgment in a Criminal Case - sheet 6 - Schedule of Payments
         Case 3:08-cr-00209-SI Document 30                                                 Filed 12/01/2008                 Page 4 of 5
DEFENDANT:     MICHAEL K. WINNER                                                                                              Judgment - Page 4 of 5
CASE NUMBER: CR-08-00209-001 SI
                                          CRIMINAL MONETARY PENALTIES
     The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
       Assessment                                   Fine                       Restitution
                                                  $100.00                                              $ $80,000.00

       Totals:                                                                                      $


[]     The determination of restitution is deferred until . An Amended Judgment in a Criminal Case (AO 245C) will be entered after such
       determination.

[ ] The defendant shall make restitution (including community restitution) to the following payees in the amount listed below.

      If the defendant makes a partial payment, each payee shall receive an approximately proportional payment unless specified otherwise
in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.



 Name of Payee                                                       Total Loss*                 Restitution Ordered            Priority or Percentage



                 Totals:                           $                   $



[]     Restitution amount ordered pursuant to plea agreement $

[]     The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
       the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6, may be
       subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

[]     The court determined that the defendant does not have the ability to pay interest, and it is ordered that:

       [ ] the interest requirement is waived for the              [ ] fine     [ ] restitution.

       [ ] the interest requirement for the            [ ] fine       [ ] restitution is modified as follows:




 * Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after September 13, 1994,
but before April 23, 1996.
AO 245B (Rev. 12/03) - Judgment in a Criminal Case - sheet 6 - Schedule of Payments
         Case 3:08-cr-00209-SI Document 30                                                      Filed 12/01/2008                  Page 5 of 5
DEFENDANT:     MICHAEL K. WINNER                                                                                                    Judgment - Page 5 of 5
CASE NUMBER: CR-08-00209-001 SI
                                                       SCHEDULE OF PAYMENTS
    Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties are due as follows:

A      [x] Lump sum payment of $100.00 due immediately, balance due

       []     not later than         , or

       [x] in accordance with ( ) C, ( ) D, ( ) E or (x ) F below; or

B      []    Payment to begin immediately (may be combined with ( ) C, ( ) D, or ( ) F below); or

C      []    Payment in equal   (e.g. weekly, monthly, quarterly) installments of $                             over a period of           (e.g., months or years), to
             commence (e.g., 30 or 60 days) after the date of this judgment; or

D      []    Payment in equal   (e.g. weekly, monthly, quarterly) installments of $ over a period of                                       (e.g., months or years), to
             commence (e.g., 30 or 60 days) after release from imprisonment to a term of supervision; or

E      []    Payment during the term of supervised release will commence within (e,g, 30 or 60 days) after release from imprisonment. The
             court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F      [x] Special instructions regarding the payment of criminal monetary penalties:
       The defendant shall pay the fine, as agreed to in the plea agreement, before the end of November 2008.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due
during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are made to the clerk of the court.

The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

       []     Joint and Several

         Defendant and co-                  Case Numbers                   Total Amount                     Joint and Several                Corresponding Payee
         defendant Names                    (including defendant                                            Amount                           (if appropriate)
                                            number)




       []     The defendant shall pay the cost of prosecution.

       []     The defendant shall pay the following court cost(s):

       []     The defendant shall forfeit the defendant's interest in the following property to the United States:




  Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine interest, (6) community
restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.
                               Executive Summary

Allegation        Two women brought information to NSF indicating that an
                  individual was pretending to be an NSF official, to lure women to
                  participate in a fake NSF research project. NSF referred the
                  information to OIG.

Subject           Michael K. Winner, a resident of San Francisco, California, with no
                  bona fide connection to NSF.

Investigation     We determined that, over 3¼             years, Winner placed 24
                  advertisements on the internet recruiting people to help with a
                  spurious NSF “research” project in San Francisco.             Winner
                  responded to inquiries from three mid-20’s female victims, to whom
                  he sent multiple emails identifying himself (with a false name) as an
                  NSF official. He also prepared and sent the victims numerous
                  electronic copies of elaborate “research” instructions, into which he
                  inserted NSF logos to create the appearance of official NSF
                  documents.

                  Winner (posing as an NSF official) ultimately persuaded two victims
                  to meet a “patient” (Winner) in a hotel room, and once there to
                  follow instructions to direct, observe, and record him engaging in a
                  variety of salacious activities. Before the sessions began, Winner
                  required the victims to sign a bogus NSF non-disclosure agreement,
                  threatening that NSF would take “legal or equitable” action against
                  them if they were to disclose anything about their activities.

DOJ Prosecution   The Department of Justice accepted the matter for prosecution.
                  Ultimately Winner agreed to plead guilty to one count of violation of
                  18 U.S.C. § 912, False Personation of an Officer or Employee of the
                  United States, a felony. Winner pled guilty in federal district court
                  and was sentenced to: 5 years probation to include real-time
                  monitoring of his computer use; 6 months home detention; and
                  payment of fines and penalties totaling $80,100.

OIG
Recommendations OIG recommends that NSF debar Winner for 5 years.




                                         1
I.     Winner’s Conduct

       Michael K. Winner lives in San Francisco, California. 1 He is currently self-
employed but previously held a variety of positions in the information technology (IT)
field.

       Over 3½ years, Winner placed two dozen advertisements on the internet
recruiting people to help with a spurious “research” project. We have identified three
mid-20’s female victims who responded to Winner’s last two advertisements. To each of
these victims, Winner sent multiple emails identifying himself with a false name and a
false NSF title. He also prepared and sent the victims electronic copies of numerous
elaborate instructions, into each of which he incorporated the NSF seal to make them
appear to be official NSF documents.

        In his emails, Winner (as an NSF official) tried to persuade the victims to meet a
“patient,” identified as “Michael” in a hotel room for the purpose of researching the
effects of an inhibition-reducing medication. In the hotel room, the two victims who
agreed to participate found the waiting “patient” (actually Winner), who had purportedly
already been given the medication (in reality, there was no medication). The victims
were directed to follow detailed instructions (written by Winner) during two-hour
“sessions,” ostensibly to explore the effects of the medication. Winner’s detailed
instructions required the victims to follow step-by-step instructions commanding the
“patient” to do specific actions, while the victims took notes about—and indeed
videotaped—his responses and actions. Under Winner’s instructions, the victims
directed the “patient” (Winner) to disrobe, bathe, urinate, defecate, and masturbate.
“Advanced” instructions for later sessions specified further sexual activities, including
sexual contact with a third party. The victims were not supposed to (and did not)
participate actively in these “research” activities themselves, but only to direct, observe,
and record. Winner told them that NSF would (and he did) pay them for their efforts.

       The first of the three victims we identified declined to meet the “patient” in a
hotel room. The 2nd victim participated in four “sessions,” and the 3rd victim participated
in the 3rd and 4th “sessions” with the 2nd victim. As instructed, at the end of each
“session” the victims left the session notes—and a videotape recording of the 4th session—
in the room with the “patient,” and Winner retained them. (DOJ requested a copy of the
videotape from defense counsel, but it was not provided.)



1
   Winner is married and has two children. He received a BA in political science from the
University of Colorado in 1988; he also attended Florida Atlantic University as an undergraduate
but received no degree.

                                               2
       Before the sessions began, Winner required the 2nd and 3rd victims to sign a bogus
National Science Foundation non-disclosure agreement, which purported to prohibit the
victims from disclosing anything about their activities, and threatened that NSF would
take “legal or equitable” action against them if they were to do so. Despite Winner’s
intimidation, the 2nd and 3rd victims contacted NSF, which referred the information to us
for investigation.

       The facts elucidated by our investigation are set out in detail in the Appendix
(Tab 1). The individual items of evidence (craigslist postings, emails, research
instructions and metadata, interview recordings and transcripts, hotel and bank records,
and court documents) are available upon request. 2

       As noted above, we were unable to identify other victims who responded to
Winner’s earlier advertisements. However, as discussed in the Appendix, 3 it is reasonable
to conclude that there were at least 3 previous victims who actually met with Winner in
hotel rooms.

II.    Prosecution by the Department of Justice

       We referred this matter to the Criminal Division of the U.S. Department of
Justice, which accepted it for prosecution. Winner ultimately agreed to plead guilty to
one count of violation of 18 U.S.C. § 912, False Personation of an Officer or Employee of
the United States, a felony. Winner pled guilty in the U.S. District Court for the
Northern District of California on 18 April 2008, and on 14 November 2008 he was
sentenced to: 5 years probation to include real-time monitoring of his computer use; 6
months home detention; and payment of fines and penalties totaling $80,100. The Plea
Agreement and Judgment are attached at Tab 2 and Tab 3.

      During the sentencing hearing, U.S. District Court Judge Susan Illston emphasized
to Winner that the seriousness of this case goes beyond its single charge:

       Well, I tell you, this is a tough case. It’s a tough case for me. It’s probably a
       tough case for you. In some ways the count[] you were charged with
       understates the seriousness of what you did. It sounds pretty antiseptic,
       impersonation of a federal official. But what you did was surely not
       antiseptic. And it’s very disturbing to me. I’m sure it was disturbing to the
       people who got involved in it. . . .

2
   In the course of the recently-concluded criminal case, we provided Winner with all of the
email attachments, the metadata for the email attachments, the craigslist postings, the Yahoo!
account information, and the interview recordings and transcripts.
3
   Tab 1, pages 2-3.

                                              3
        But I’m so troubled by what happened and I’m so concerned that there's
        any kind of repetition, that’s what has given me the genuine pause
        here. . . . .

        Because the problem is that the conduct—you’re so smart, you see, and it’s
        possible for you to engage in conduct that’s very hurtful to other people. 4

III.    OIG Assessment

        A.      Grounds for Debarment

        NSF may debar a person for “Commission of any . . . offense indicating a lack of
business integrity or business honesty that seriously and directly affects [the person’s]
present responsibility . . . .” 5 Winner pled guilty to violating 18 U.S.C. § 912 for acts that
clearly indicate a lack of business integrity or business honesty and that seriously and
directly affect his individual present responsibility. Furthermore, the evidence of
Winner’s wrongdoing extends well beyond the single count of impersonation of an NSF
official with which he was charged, establishing conclusively that Winner possesses no
present responsibility.

        B.      Burden of Proof

       In debarment actions, the burden of proof lies with NSF to demonstrate by a
preponderance of the evidence that cause for debarment exists. 6 “If the proposed
debarment is based upon a conviction or civil judgment, the standard of proof is met.” 7
Since this proposed debarment is based on Winner’s conviction for impersonation of an
NSF official, the burden of proof is met.

        C.      Period of Debarment

        Under NSF’s debarment regulation, the

        period of debarment will be based on the seriousness of the cause(s) upon
        which [a person’s] debarment is based. Generally, debarment should not
        exceed three years. However, if circumstances warrant, the debarring
        official may impose a longer period of debarment. . . . In determining the


4
    Transcript (Tab 4) at 4, 5, & 18.
5
    2 C.F.R. § 180.800(a)(4).
6
    2 C.F.R. § 180.850(a) & -.855.
7
    2 C.F.R. § 180.850(b).

                                              4
       period of debarment, the debarring official may consider the factors
       [discussed below]. 8

      The seriousness of Winner’s conduct indisputably warrants at minimum a three-
year debarment. However, we recommend that NSF impose a five-year term of
debarment commensurate with the determination of the U.S. District Court that Winner
should be subject to probation for the statutory maximum period of 5 years. 9 A 5-year
debarment is also appropriate because Winner carried out his impersonation scheme for
more than three years before he was caught, and he very skillfully covered his tracks and
subsequently refused to subject himself to questioning about the full extent of his
wrongdoing or the actual number of his victims.

       D.      Relevant Factors

      The debarment regulation lists 19 factors that the debarring official must
consider. 10 The following factors are pertinent to this case:

               1.     Actual or Potential Harm or Impact 11

        Winner lied to at least three women, and possibly many more, 12 in order to
convince them that NSF was paying them to meet him in hotel rooms. In the hotel
rooms, the victims followed ostensibly NSF-sanctioned instructions to tell Winner what
to do. The two identified victims now know that Winner was a fraud and NSF does not
support such activities. However, they have to live with the memories of their
observation of Winner’s acts in those hotel rooms. In addition, an unknown number of
earlier victims may still believe that NSF supported this “research.” Winner’s conduct
thus caused actual harm to the mental well-being of two victims, and likely also caused
harm to the mental well-being of any unknown additional victims, harm that can never
be completely remediated. In addition, any unknown additional victims would continue
to believe that NSF supported the disgusting conduct they observed, causing irreparable
damage to NSF’s reputation.



8
   2 C.F.R. § 180.865(a)-(b).
9
   18 U.S.C. § 3561(c)(1).
10
   2 C.F.R. § 180.860.
11
   2 C.F.R. § 180.860(a).
12
   Winner used a free internet service to contact his victims—the emails are no longer available
from that service, so we were unable to identify or contact earlier victims via that route. We did
post queries on craigslist in an effort to locate earlier victims, but we received only one useful
response, from Victim #1 (as described in the Appendix (Tab 1) starting on page 3).

                                                5
                2.     Frequency or Duration of Incidents 13 / Pattern of Wrongdoing 14

        Winner posted a total of 24 advertisements over 3¼ years for researchers and
videographers. He spent numerous hours writing and revising the advertisements, writing
and revising the detailed instructions for each session, monitoring emailed responses to
his advertisements and responding to them at length, and setting up meetings with the 2
identified victims. For those 2 victims, Winner sent ten emails in which he explicitly
identified himself with an NSF title, as well as dozens more without adding the NSF title.
He also prepared and gave to at least one of the victims sixteen distinct documents into
which he incorporated the NSF seal. And we believe the evidence supports the
conclusion that he likely engaged in the same sort of conduct with other victims who
responded to his earlier advertisements. 15

                3.     Role in Wrongdoing 16

       Winner alone planned, initiated, and carried out the wrongdoing. He alone
advertised repeatedly over the course of 3¼ years for “researchers,” created the numerous
detailed instructions, and arranged and paid for hotel rooms for the “research.” He alone
set up an anonymous email account to identify the sender as “NSF: SanFrancisco.” He
alone created and chose to use the title “Director Pacific Region, Independent Research,
National Science Foundation Behavioral Research,” and he alone chose to repeatedly and
wrongly misuse the NSF logo. Winner also went to considerable effort, employing his IT
expertise, to: make it difficult to track him down; make it impossible to track down his
previous victims; and hide his activities from his wife, children, and employers.

                4.     Acceptance of Responsibility 17

        When we contacted Winner about the activities at issue, he initially claimed to
have been the victim of identify theft. He also at times claimed to be unaware that NSF
was a federal agency, despite its internet address ending in “.gov” and his expertise in IT.
Later, although Winner technically accepted responsibility by entering a guilty plea before
the federal district court, he did not accept moral responsibility by disclosing honestly the
full extent of his wrongdoing or identifying any other victims.




13
     2 C.F.R. § 180.860(b).
14
     2 C.F.R. § 180.860(c).
15
     See Appendix (Tab 1), pages 2-3.
16
     2 C.F.R. § 180.860(f).
17
     2 C.F.R. § 180.860(g).

                                               6
                5.     Repayment 18

       Winner’s wrongdoing with regard to his known and unknown victims did not
involve monetary loss. However, Winner has paid the full $80,000 fine and $100 special
assessment ordered by the court.

                6.     Cooperation 19

        Winner never fully cooperated with the investigation. Winner agreed to plead
guilty to a single felony count, and to pay a substantial monetary fine. However, when
interviewed, Winner lied and avoided answering questions, and he never disclosed the
identity of any of his other victims.

                7.     Bringing the facts to the attention of the appropriate government
                       agency in a timely manner 20

      Winner did not bring the information to the attention of NSF, his victims did.
When we called and confronted him with the incontrovertible evidence of his
wrongdoing, Winner persistently lied and attempted to deflect blame onto his victims.

                8.     Fully investigating the facts and making the result of the
                       investigation available to the debarring official 21

        Winner refused to discuss with us the scope of his wrongdoing or the identity of
any other victims, and there is no reason to believe that he will do so for NSF’s debarring
official.

                9.     Other factors that are appropriate to the circumstances of a
                       particular case 22

      As Judge Illston, the federal judge presiding at Winner’s plea and sentencing,
pointed out, this case is more serious than indicated by the statutory provision to which
Winner pled guilty. These victims were not deprived of money; they were deprived of
their mental well-being which would not include vivid memories of the pernicious
behavior in which Winner engaged.


18
     2 C.F.R. § 180.860(h).
19
     2 C.F.R. § 180.860(i).
20
     2 C.F.R. § 180.860(n).
21
     2 C.F.R. § 180.860(o).
22
     2 C.F.R. § 180.860(s).

                                              7
IV.    Recommendation

       Despite Winner’s sentence, he continues to possess the skills to be hired in
positions involving federal awards and contracts. In order to further protect the interests
of the public and NSF, we recommend that NSF debar Michael K. Winner for 5 years.




                                            8
